                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

 Case Num b er: A1 00 70053                                                         Page 1 of 1


          We received an allegation that a proposal contained plagiarism; the proposal listed
          a PI and two co-Pis as authors. Our Inquiry showed an Investigation was
          warranted, and we referred the matter to the grantee. It concluded one of the co-
          Pis committed research misconduct when she plagiarized, and it took appropriate
          actions. It concluded the PI plagiarized, but it did not rise to the level of research
          misconduct, and the other co-PI was exonerated.
          We concurred with the grantee's conclusions and referred the case against the co-PI
          to NSF for adjudication with recommendations to make a finding of research
          misconduct and take additional actions. NSF concurred with our recommendations
          and took several actions in response. We sent the PI a questionable research
          practice letter advising him to follow better citation practices. Accordingly, this
          case is closed with no further action taken. Our report, NSF's decision, and this
          Closeout Memorandum constitute the documents for the case closeout.




NSF OIG Form 2 (I 1/02)
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230



                                        JUL 1 6 2012


   OFFICE OF THE
  DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED

[redacted]




       Re:     Notice of Research Misconduct Determination


Dear Dr. [redacted]

        In 2010, you served as a co-Principal Investigator ("co-PI") on a proposal submitted for
funding to the National Science Foundation ("NSF") entitled, [redacted]
                                                                               ." As documented
in the attached Investigative Report prepared by NSF's Office of Inspector General ("OIG"), this
proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

       Your proposal contained approximately 118 unique lines of text copied from nine' source
documents. By submitting a proposal to NSF that copied the ideas or words of another without
adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
                                                                                                  Page 2
    else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
    conclude that your actions meet the definition of"research misconduct" set forth in NSF's
    regulations.

            Pursuant to NSF regulations, the Foundation must also determine whether to make a
    finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
    reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
    evidence, your plagiarism was committed knowingly and constituted a significant departure from
    accepted practices of the relevant research community. I am, therefore, issuing a finding of
    research misconduct against you.

             NSF's regulations establish three categories of actions (Group I, II, and III) that can be
    taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
    issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
    NSF; requiring that an institution or individual obtain special prior approval of particular
    activities from NSF; and requiring that an institutional representative certify as to the accuracy of
    reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
    Group II actions include award suspension or restrictions on designated activities or
    expenditures; requiring special reviews of requests for funding; and requiring correction to the
    research record. 45 CFR § 689.3(a)(2). Group lli actions include suspension or termination of
    awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
    or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

             In determining the severity of the sanction to impose for research misconduct, I have
    considered the seriousness of the misconduct, and our determination that it was committed
    knowingly. I have also considered the fact that your misconduct was an isolated incident, and
    that it did not have a significant impact on the research record. In addition, I have considered
    other relevant circumstances. 45 CFR § 689.3(b).

           After assessing the relevant facts and circumstances of this case, I am taking the
    following actions against you:

           (l) Until July 1, 2014, you must provide certifications to the OIG that any proposal or
               report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
               fabricated material;

           (2) Until July 1, 2014, you must obtain, and provide to the OIG, assurances from a
               responsible official of your employer that any proposal or report you submit to NSF as
               a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

           (3) By July 1, 2014, you must certify your completion of the training course mandated by
               the University as a result of its fmdings in this matter, and provide documentation of
               the program;s content to the OIG; and




~
                                                                                            Page 3
       (4) Until July 1, 2014, you are prohibited from serving as a reviewer, advisor, or
           consultant for NSF.

       The certifications, assurances, and training documentation should be submitted in writing
to NSF' s OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.


Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30~day period, this ·
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call [redacted] , Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,




                                                    Cora B. Marrett
                                                    Deputy Director




Enclosures
   Investigative Report
   45 C.F.R. Part 689
      National Science Foundation
         Office of Inspector General




                 Confidential
            Report of Investigation
           Case Number A10070053

                        2 March 2012
      This Confidential Report of Investigation is provided to you
                         FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which
may result in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a.
This report may be further disclosed within NSF only to individuals who must
have knowledge of its contents to facilitate NSF's assessment and resolution of
this matter. This report may be disclosed outside NSF only under the Freedom of
Information and Privacy Acts, 5 U.S.C. §§ 552 & 552a. Please take appropriate
precautions handling this confidential report of investigation.
CONFIDENTIAL                                                         CONFIDENTIAL



                             Executive Summary
Allegation:      Plagiarism.
OIG Inquiry:     We found one NSF proposal contained text copied from multiple
                 sources without proper citation. We contacted the subjects (a PI
                 and two co-Pis), whose responses confirmed an Investigation
                 was warranted, so we referred the matter to the University.
University
Investigation:   The University concluded one subject (a co-PI) committed
                 research misconduct, one subject (the PI) was careless in her
                 citation practices, and exonerated the third subject (a co-PI). It
                 reprimanded the co-PI, required monitoring of her proposals and
                 publications for 3 years, and required her to take a research
                 ethics course. It cautioned the PI to be more careful about his
                 citations.
OIG
Investigation:   We concluded the University's investigation could be used in lieu
                 of our own independent investigation and accepted its findings.
                 The Act: The Subject (co-PI) plagiarized approximately 118
                 unique lines of text from 9 source documents into an NSF
                 proposal.
                 Intent: The Subject acted knowingly.
                 Significant Departure: The Subject's plagiarism represents a
                 significant departure from accepted practices.
                 Standard of Proof: A preponderance of the evidence supports the
                 conclusion that the Subject committed research misconduct.
                 Pattern: There is no evidence to suggest a pattern of plagiarism.
OIG
Recommendations:
                 Send a letter of reprimand to the Subject informing her that
                 NSF has made a finding of research misconduct and require the
                 Subject to:
                 •   Certify for 2 years that any documents she submits to NSF
                     do not contain plagiarism, falsification, or fabrication.
                 •   Obtain assurances from her university's Research Integrity
                     Officer, or appropriate official, for 2 years that any
                     documents she submits to NSF are either entirely her own
                     writing or are properly cited.



                                       1
CONFIDENTIAL                                                       CONFIDENTIAL



               •   Certify her completion of the training program as required by
                   the University as a result of its finding and provide
                   documentation of the program's content within 2 years of
                   NSF's finding.
               •   Prohibit the Subject from serving as a reviewer, advisor, or
                   consultant on NSF proposals for 2 years.




                                     2
CONFIDENTIAL                                                                        CONFIDENTIAL



                                        OIG's Inquiry
       Our office received an allegation that an NSF proposal 1 contained plagiarism.
The proposal lists a PI (Subject 1) and two co-Pis (Subjects 2-3). 2 Our review of the
proposal found approximately 113 lines of verbatim text, including 19 embedded
references, copied from 9 sources. We wrote to the subjects, 3 who replied 4 that
Subject 3 was not responsible for any of the proposal sections containing copied text.
Subject 2, who was responsible for the majority of the questioned text, said she re-
wrote some text from sources verbatim, but said it was not plagiarism because she
cited the source. Subject 1 said he used improper citation techniques, but also
denied it was plagiarism. Since the subjects' explanations did not dispel the
allegation, we referred the matter to their home institution (the University). 5


                                University's Investigation
       The University conducted an investigation,6 and its investigative committee
(IC) reviewed the documents we provided and interviewed the three subjects. The
IC concluded that Subject 3 was not responsible for any of the copied text and
exonerated him. The IC discussed various definitions of plagiarism (including its
own, NSF's and the American Medical Association's) and community standards. It
concluded it is an accepted, and expected, practice in academia to distinguish
between summarizing and interpreting others' ideas and data, and closely
paraphrasing or copying others' word by which those ideas are expressed. 7
      The IC determined Subject 1 was responsible for copying from sources C and
G, while Subject 2 was responsible for copying from sources A, B, D-F, and H.
Subject 1 and Subject 2 each said the other was responsible for the copying from
source I. Based on the evidence, the IC concluded that in the original draft proposal
from Subject 2, the text from source I was cited, and the citation was accidentally
moved by Subject 1 during editing. Thus, the IC concluded there was no plagiarism
with respect to source I.




   1   [redacted]
                                             The proposal was submitted by [redacted]
                (the University) and was declined. Tab 1 included the proposal and sources.
   2 The PI (Subject 1) was fredacted]            , and the co-Pis are [redacted]
(Subject 2) and [redacted]         (Subject 3).
   3 Our Inquiry letter to the subjects is Tab 2.
   4 The subjects' responses are Tab 3.

   5 Our referral letter is Tab 4.
   6 Tab 5 contains the IC's report and its appendices.
   7 The IC reasoned if a secondary source merely copied or paraphrased an original source, it

added nothing to the primary source and would not require attribution. If a secondary source,
however, summarized and interpreted ideas presented by others, it adds value and requires citation.


                                                3
CONFIDENTIAL                                                                 CONFIDENTIAL



                        IC Assessment of Subject 2's Actions
       From source A, which is a management plan posted on a federal agency
webpage,s the IC identified 20 instances of copying by Subject 2 into the proposal.
The IC concluded approximately 90% of one section in the proposal was copied
verbatim from this document. Because this document summarized and interpreted
primary sources, the IC concluded it should have been cited and the copied passages
distinguished. The IC concluded the copying met the definition of plagiarism and
the act departed significantly from accepted practices. Like source A, sources B 9
and HlO were documents on government web sites from which Subject 2 copied.
Subject 2 admitted copying from these documents and told the IC she thought she
could copy from those documents without attribution because they were public
knowledge. The IC opined Subject 2 is confused by the distinction between public
domain and public knowledge. Because of Subject 2's professed lack of knowledge
about the proper community standards, the IC concluded her coping from these
documents was committed recklessly.
        The IC spent considerable effort analyzing copying from source D, which is
similar to source A in that both are secondary sources that summarize and interpret
information and data from primary papers, but from which Subject 2 copied text
verbatim and attributed it to the embedded (primary) references. Subject 2 claimed
to have never seen source D, which is an excerpt of a book published on a state
agency web page. 11 Given the substantive, verbatim copying from source D,
together with Subject 2's inability to explain how her own words so precisely
duplicated those from source D, the IC found her explanation "hard to believe, and
therefore unacceptable."l 2 Subject 2 suggested that even if there was a similarity
between her words and those of source D, another author had also used similar
words, also citing to one of the embedded references, thus attempting to discredit
the allegation by asserting that another author had done what she had. The IC
analyzed the primary and secondary sources and concluded: "The tu quoque
argument, aside from being a logical fallacy, breaks down upon checking the
facts." 13 The IC drew a picture illustrating the flow of words and citation from
primary to secondary sources, and the inclusion of "verbatim, non-cited material
with embedded references" within Subject 2's proposal. 14 Because Subject 2 could
not explain how her text in the proposal appears copied verbatim from a document
she had never seen, yet was carefully edited to flow with her other text, the IC
concluded Subject 2's copying from source D was knowing plagiarism.

   s It is a   fredactedl          Plan and appeared on the     [redacted]
                                                                                      web
page.
   9  A n essay poste d on t h e [redacted] web page.
   10 An analysis and summary article posted on the fredacted] web site.
   u The [redacted]
   12 Tab 5, report, p. 12.
   !3 Jd.
   1 4 Ibid., p. 13.




                                               4
CONFIDENTIAL                                                             CONFIDENTIAL



      The IC dismissed the copying from sources E-F as being careless restating of
common methodologies and definitions, which is a departure, but not significant
departure from established practice.
       With regard to Subject 2, the IC concluded her plagiarism fell into two
patterns. The first is attributing text copied from secondary sources to primary
sources, and the second is confusing public domain with public knowledge. It
reasoned short passages may be constrained by technical content and the desire for
simplicity, but that would not explain verbatim copying of extended passages, such
as copied from sources A and D. Thus, the IC concluded the evidence ruled out
errors and Subject 2 was culpable in several instance of reckless plagiarism, and at
least one instance of knowing plagiarism, all of which it deemed research
misconduct.


                        IC Assessment of Subject l's Actions
      As noted above, the IC attributed copying from sources C and G to Subject 1.
The IC concluded the copying from these sources was closely paraphrased and
somewhat technical in nature. It accepted Subject l's explanation that he was
careless in following expected citation standards. Thus, it concluded Subject l's
actions did not constitute research misconduct.


                                    I C Conclusions
      The IC recommended Subject 2:
         •     Be sent a strong letter of reprimand, which will remain in her
               permanent record;
         •     Have her publications and proposals monitored for 3 years to ensure
               there is no plagiarism in them; and
         •     Attend a university-level research ethics course equivalent to 15 hours
               of instruction within 2 years. The course should not be on-line and
               must include a treatment of proper citation techniques.
      The IC recommended Subject 1:
         •     Be sent a personal letter of disapproval; and
         •     Attend an ethics course that includes a treatment of proper citation
               techniques.
      The IC recommended Subject 3 be sent a personal letter that he has been
cleared of all suspicion of plagiarism regarding the proposal.
      To be proactive in the responsible conduct of research and protect the
University's reputation, the IC recommended the University establish a series of
workshops for faculty and graduate students for concentrate on RCR topics.


                                            5
CONFIDENTIAL                                                                       CONFIDENTIAL



      The adjudicator 15 accepted the findings and recommendations of the IC
regarding the three subjects and issued the appropriate letters.


                                     OIG's Assessment
       We consider the University's investigation accurate and complete and to have
followed reasonable procedures. Accordingly, we accept its investigation in lieu of
conducting our own. We generally agree with the University about its evaluation of
the evidence and its conclusions. Specifically, we agree Subject 3 is exonerated.
With regard to Subject 1, we disagree with the IC that his copying from sources C
and G was careless. Like Subject 2, he copied from a secondary source and
attributed it to an embedded (primary) source, integrating the copied text with his
own. However, given the amount of copied material, approximately 5.5 lines from
each source, we conclude the plagiarism is a departure, but not a significant
departure, from accepted, scholarly standards. Thus, Subject 1 did not commit
research misconduct; we make no recommendations regarding him in this report.
       We agree with the IC that Subject 2's copying is plagiarism that significantly
departs from scholarly standards, but we conclude all of Subject 2's plagiarism is
knowing (see Intent section). We disagree with the IC that Subject 2's copying from
sources E-F is a careless restating of common methodologies. We conducted a
search of the internet for that methodology and found it was not a common
methodology-in fact, sources E and F are unique in describing the methodology in
the form that Subject 2 copied without attribution. 16 Even if methodologies are, in
general, technically descriptive enough not to require quotations of specific steps,
the methodology itself should be cited to its source, particularly if it is not common;
Subject 2 did not do this. Thus, we include sources E and F as plagiarism
attributed to Subject 2.


      NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (1) there be a significant departure from accepted practices of the relevant
research community; (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
evidence. 17
                                            The Act
       Subject 2 copied approximately 113 unique lines of text from 9 sources into a
proposal. The NSF Grant Proposal Guide is clear: "NSF expects strict adherence to
the rules of proper scholarship and attribution. The responsibility for proper
attribution and citation rests with authors of a proposal; all parts of the proposal

   15  Tab 6 is the Interim Chancellor's decision.
   16  When we searched the internet using technical phrases from the methodology as described in
the proposal via Google, it returned, in both cases, only a single hit-that for documents E and F.
    11 45 C.F .R. §689.2(c).




                                                6
CONFIDENTIAL                                                             CONFIDENTIAL



should be prepared with equal care for this concern. "18 Consequently, by failing to
appropriately distinguish verbatim copied text from her own original text,
including, as the IC noted, the citations to primary sources rather than the
secondary source from which the text was copied, Subject 2 presented the work of
others as her own and, thus, failed to give appropriate credit to the actual authors.
This act meets NSF's definition ofplagiarism.l9
                                          Intent
       We concur with the IC's assessment that Subject 2 acted with a culpable
state of mind when she copied from various sources into the proposal. There are
numerous instances where Subject 2 made minor changes to integrate the copied
text into her own, together with the inclusion of embedded references that create
the appearance of appropriate citation. Regarding her defense to the IC, it strains
our credulity that someone who received all her degrees at U.S. universities 20
believes it is acceptable to copy unlimited amounts of material (text, figures, tables)
from a scientific document, verbatim and without attribution, simply because it
appears on a government agency's web page. Therefore, we conclude Subject 2's
plagiarism is knowing.
                                   Significant Departure
      Based on the evidence and Subject 2's response, we concur with the IC that
her practices seriously depart from accepted, scholarly standards in her research
community.
       Using the preponderance of evidence standard, we conclude Subject 2
knowingly copied unattributed text into the co-authored proposal without
appropriately distinguishing the text from her own work. In doing so, Subject 2
significantly departed from the accepted practices of her research community.
Accordingly, we conclude that Subject 2 committed research misconduct.


                               OIG's Recommended Disposition
      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances.21
                                        Seriousness
       We concur with the University that the amount of plagiarized material is
sufficiently serious to warrant a finding of research misconduct.

   ISNSF Grant Proposal Guide, Chapter 1, Section D.3.
   1945 C.F.R. § 689.1 (3).
   20 Subject 2 received her B.S. and M.S. from [redacted]   and her Ph.D. from   [redacted]


   21   45 C.F.R. §689.3(b).


                                             7
CONFIDENTIAL                                                              CONFIDENTIAL



                                    Degree of Intent
      As we noted above, the IC concluded Subject 2 acted recklessly and
knowingly, depending on where she found the source document. We concluded the
Subject acted knowingly in all her plagiarism based on the integration of the
plagiarized text with her own and the unreasonableness of her argument about
public domain given her educational background. Indeed, the university's policy,
where she obtained her Ph.D. states:
         Plagiarism is misrepresenting somebody else's intellectual work -
         ideas, information, writing, thinking - as your own. In other words, it
         is a misuse of source material. Whether intentional or unintentional,
         plagiarism is a serious violation of [the University's] Code of Academic
         Integrity.22
And, specific to the examples in this proposal,
         [P]lagiarism issues arise when you use a specific source, but fail to
         indicate what you have borrowed, and/or fail to provide proper
         bibliographic information. 23 [emphasis in original]


                                         Pattern
      Neither the University nor OIG have discovered any evidence to support a
pattern of plagiarism. As part of our Inquiry, we reviewed another of Subject 2's
proposals previously submitted to NSF and did not find substantive copied text.


                           Impact on the Research Record
     The effect on the research record as a result of the subjects' action was
minimal, as the proposal was declined.


                                  Subject's Response
         Subject 2 did not respond to our draft report.


                                   Recommendations
       Based on the evidence, we recommend NSF take the following actions as a
final disposition in this case to protect the interests of the Federal Government:
         •   Send Subject 2 a letter of reprimand notifying her that NSF has made a
             finding of research misconduct. 24


   2~   rredactedl
   2' [redacted]

                                             8
CONFIDENTIAL                                                                            CONFIDENTIAL



         •   Require Subject 2 to certify her completion of the training program as
             required by the University as a result of its finding and provide
             documentation of the program's content within 2 years of NSF's finding. 2 5
For a period of 2 years as of the date of NSF's finding:
         •   Require for each document (proposal, report, etc.) to which Subject 2
             contributes for submission to NSF (directly or through her institution),
                o   Subject 2 to submit a certification that the document does not
                    contain plagiarism, falsification, or fabrication. 2 6
                o   Subject 2 to submit assurances from the Research Integrity Officer
                    or a responsible official of her employer that the document does not
                    contain plagiarism, falsification, or fabrication. 2 7
         •   Prohibit Subject 2 from participating as a reviewer, advisor, or consultant
             for NSF. 28
The Subject's certifications, assurances, and documentation of responsible conduct
of research course should be sent to the Assistant Inspector General for
Investigations (AlGI) for retention in OIG's confidential file on this matter.




    24 A Group I action 45 C.F.R. 689.3(a)(l)(i).
    25 This action is similar to Group I actions 45 C.F.R. 689.3(a)(l). Because of the specific hour and
content requirements the University imposed, we recommend using the University's 2-year time-
frame, as opposed to the standard 1-year time-frame.
    26 This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
    27 A Group I action 45 C.F.R. 689.3(a)(l)(iii).
    28 A Group III action 45 C.F.R. 689.3(a)(3)(ii).




                                                   9
